<html>
<title> - E-MANIFEST: AN UPDATE ON IMPLEMENTATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                E-MANIFEST: AN UPDATE ON IMPLEMENTATION

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2015

                               __________

                           Serial No. 114-94
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               ____________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
99-427                      WASHINGTON : 2016                   
                    
                    
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6403140b24071117100c0108144a070b094a">[email&#160;protected]</a>  
                  
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    20

                               Witnesses

Barnes Johnson, Director, Office of Resource Conservation and 
  Recovery, Office of Solid Waste and Emergency Response, U.S. 
  Environmental Protection Agency................................     5
    Prepared statement...........................................     8
    Answers to submitted questions...............................    35

 
                E-MANIFEST: AN UPDATE ON IMPLEMENTATION

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, Murphy, 
Latta, McKinley, Johnson, Bucshon, Flores, Hudson, Tonko, 
Schrader, Green, and Pallone (ex officio).
    Staff present: Will Batson, Legislative Clerk; Jerry Couri, 
Senior Environmental Policy Advisor; A.T. Johnston, Senior 
Policy Advisor; David McCarthy, Chief Counsel, Environment and 
Economy; Tina Richards, Counsel, Environment; Chris Sarley, 
Policy Coordinator, Environment and Economy; Dan Schneider, 
Press Secretary; Christine Brennan, Press Secretary; Jacqueline 
Cohen, Senior Counsel; Timia Crisp, AAAS Fellow; Rick Kessler, 
Senior Advisor and Staff Director, Energy and Environment; and 
Alexander Ratner, Policy Analyst.
    Mr. Shimkus. I am going to call the hearing to order. And 
before I recognize myself, I want to mention a few things on 
this week's activities and schedule. This is a very busy and 
historic week. And full House representatives, as we know, we 
also have important work to do in the subcommittee. Today, we 
are finally giving our friends of the EPA a chance to provide 
their progress report on the e-Manifest program. The Agency has 
waited patiently as we have been compelled to postpone today's 
hearing twice for scheduling reasons beyond our control. But 
today is finally here and we have always planned we will hear 
from a single witness and only one panel. As the testimony 
submitted has not changed from the first scheduled time for 
this hearing, our questions will be pretty much the same as 
well.
    Tomorrow, we have two activities: a hearing on the 
management of low level nuclear waste and a subcommittee mark-
up of the Senate's rural water technical assistance 
authorization. The hearing is an important step as we all study 
the intricacies of the entire nuclear waste issue. This is 
another in a series designed to give members a sound 
understanding of all the facts of this challenge so that we are 
on solid footing to act legislatively when that time comes.
    Finally, at the request of Mr. Pallone, we will give 
subcommittee members a chance to vote on the Senate Rural Water 
Technical Assistance Bill. This is a bill we had a hearing on 
last week in which passed the Senate unanimously. If we can see 
clearly to pass it without amendment on a strong bipartisan 
basis, we can make it into law. And in doing so, we must thank 
subcommittee Ranking Member, Mr. Tonko, and our Vice Chair Mr. 
Harper, for their leadership in getting us this far on the 
rural water technical assistance.
    To my knowledge, there is no substantive opposition to the 
bill and most, if not all, look forward to helping our 
constituents by advancing the bill to the President without 
amendment.
    I am proud of the subcommittee members. We work hard in the 
subcommittee in a bipartisan spirit. We have much work left to 
accomplish in this Congress, so I am glad members are willing 
to maintain this consistent level of effort to achieve that. 
And I just wanted to make sure that we started understanding 
that we are pushing it pretty hard on the subcommittee.
    So with that, I would like to recognize myself for 5 
minutes for an opening statement.
    The subcommittee is in order.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. This morning's hearing focuses our panels on 
EPA's implementation of the electronic program to receive, 
store, and make publicly available manifests of hazardous 
waste. Creation of this system has been something that EPA, the 
regulated industry, and environmental advocacy groups have 
supported for quite some time as a way of modernizing the 
carbon copied, paper clogged system in place.
    Three years ago, enthusiasm was high for taking this Solid 
Waste Disposal Act requirement into the 21st Century. In 
September 2012, Congress came together with solid bipartisan 
majorities to permit EPA to collect the fee needed to set up 
the system EPA wanted to operate. I think we all believed that 
not only would EPA be able to continue tracking hazardous waste 
destined for treatment, storage, or disposal; but the new 
system provided the collateral benefits of increased 
transparency, access to critical information for first 
responders, reduced reporting errors, and greater 
accountability of waste management.
    EPA asked for, and we gave them, 3 years to get the system 
up and running. Working through some thorny funding concerns, 
we authorized the money to make this happen. There was no 
reason to believe the system would not be operational within 
that time frame.
    That was then.
    Three weeks ago, yesterday, marked 3 years from the date of 
enactment of the Hazardous Waste Electronic Manifest Act. Under 
the law, EPA was supposed to have moved from the system 
creation phase to its actual deployment. But, the system is not 
ready for ``prime time.''
    Moreover, while EPA has been given $7.4 million to get this 
system going--$1.4 million more than Congress authorized 
through fiscal year 2015, the President's fiscal year 2016 
budget request now calls for another $7.4 million to finish 
building the system.
    Yet, because the law assumed EPA would have the system 
working by now, the law's authorization has expired and its 
user fees are unavailable until the electronic manifest system 
is working. We all know there isn't spare federal money lying 
around and it is an easy disqualifier for further funding if 
there is not a current authorization.
    If this system is going to survive, it is up to the Agency 
to help us get to the bottom of what is going on here and, if 
merited, make the case to others that e-Manifest's launch needs 
further authorization and more funding. I know EPA hasn't been 
sitting on its hands the last 3 years, but we need a full 
accounting of what it has been doing and what still needs to be 
done. Ultimately, we need to know why it is taking so long, why 
it is costing so much, and when, if EPA does get its requested 
funding, will this system actually be usable.
    I welcome our witness from the Environmental Protection 
Agency, Barnes Johnson. I appreciate your coming up here to 
share your experience and insight on the Agency's efforts. We 
are glad that you are here and hope you will see us as a 
partner in trying to make the system run well.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The Subcommittee will now come to order.
    This morning's hearing focuses our panel on EPA's 
implementation of an electronic program to receive, store, and 
make publicly available manifests of hazardous waste. Creation 
of this system has been something that EPA, the regulated 
industry, and environmental advocacy groups have supported for 
quite some time as a way of modernizing the carbon copied, 
paper clogged system in place.
    Three years ago, enthusiasm was high for taking this Solid 
Waste Disposal Act requirement into the 21st Century
    In September 2012 Congress came together with solid 
bipartisan majorities to permit EPA to collect the fee needed 
to set up the system EPA wanted to operate. I think we all 
believed that not only would EPA be able to continue tracking 
hazardous waste destined for treatment, storage, or disposal; 
but the new system provided the collateral benefits of 
increased transparency, access to critical information for 
first responders, reduced reporting errors, and greater 
accountability of waste management.
    EPA asked for, and we gave them, 3 years to get the system 
up and running. Working through some thorny funding concerns we 
authorized the money to make this happen. There was no reason 
to believe the system would not be operational within that time 
frame.
    That was then.
    Three weeks ago, yesterday, marked 3 years from the date of 
enactment of the Hazardous Waste Electronic Manifest Act. Under 
the law, EPA was supposed to have moved from the system 
creation phase to its actual deployment. But, the system is not 
ready for ``prime time.''
    Moreover, while EPA has been given $7.4 million to get this 
system going--$1.4 million more than Congress authorized 
through fiscal year 2015, the President's fiscal year 2016 
budget request now calls for another $7.4 million to finish 
building the system.
    Yet, because the law assumed EPA would have the system 
working by now, the law's authorization has expired and its 
user fees are unavailable until the electronic manifest system 
is working. We all know there isn't spare federal money lying 
around and it is an easy disqualifier for further funding if 
there is not a current authorization.
    If this system is going to survive it's up to the Agency to 
help us get to the bottom of what is going on here and, if 
merited, make the case to others that e-Manifest's launch needs 
further authorization and more funding.
    I know EPA hasn't been sitting on its hands the last 3 
years, but we need a full accounting of what it has been doing 
and what still needs to be done. Ultimately, we need to know 
why it's taking so long, why it's costing so much, and when, if 
EPA does get its requested funding, will this system actually 
be usable.
    I welcome our witness from the Environmental Protection 
Agency, Barnes Johnson. I appreciate you coming up here to 
share your experience and insight on the Agency's efforts. We 
are glad that you are here and hope you will see as a partner 
in trying to make the system run well.
    I will now yield 5 minutes to the Ranking Member of the 
Subcommittee, the gentleman from New York, Mr. Tonko, for the 
purpose of providing an opening statement.

    Mr. Shimkus. I will now see if any other member on our side 
wants any time. Seeing none, I now yield back my time and yield 
to the Ranking Member, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chairman. Good morning. Thank you 
and welcome, Mr. Johnson, for testifying before the committee 
this morning. I believe we all agree that an electronic system 
for tracking hazardous materials will promote greater safety 
and more accurate record keeping and certainly lower costs.
    The Agency appears to be moving forward steadily to meet 
the requirements of the 2012 legislation and to get the system 
up and running. And I look forward to hearing more about the 
status of this program. And again, thank you, for your 
testimony, Director Johnson.
     Since I still have a few minutes I believe I have to 
express my disappointment that the subcommittee is holding a 
hearing on this topic. There are many more pressing issues that 
require our attention, like drinking water infrastructure, 
brownfields, environmental justice, emergency environmental 
response, chemical security, electronic waste, just to name a 
few topics.
    We have spoken often enough for you to know that drinking 
water infrastructure is at the top of my list. There are 
serious threats to drinking water, systems in towns and cities 
across our great country. With the exception of the problem in 
Toledo, Ohio, we have never held hearings on the problems 
related to source water quality, contamination, drought, or 
emergency response procedures. Instead, we are spending and 
investing our time here examining the e-Manifest program, a 
program that I believe is underway, has received adequate 
funding to make progress and that it is moving forward at a 
steady pace. I wish other programs were doing as well.
    I realize this committee had a concern about whether the 
appropriators would continue to fund the e-Manifest program 
adequately in the next fiscal year. But at this point, it is 
clear that we are not going to pass a free standing Interior 
Appropriations Bill. That is a benefit, in my view, because the 
bill has too many cuts to vital programs and too many bad 
policy riders. That bill offered funding far too low to meet 
real domestic needs. Lack of adequate funding is an issue for 
all programs, not just e-Manifest.
    The proposed Interior Appropriations Bill cut more than 
$700 million, as compared to this year's funding for EPA. Much 
of that comes from the state and tribal assistance grants, 
money that goes to the states and to local governments to 
ensure that we have clean air and have clean water. The 
Appropriations Committee proposed a cut to the Drinking Water 
Revolving Loan Fund of some $150 million. That is compared to 
this year's funding. It is $429 million lower than the 
President's request. This cut stands in stark contrast to 
current infrastructure assessments and to what we have heard 
from witnesses about the needs of water utilities at the two 
hearings we did hold on drinking water technical assistance 
programs.
    We should be exploring solutions that will help public 
water systems that are struggling with the tremendous backlog 
of work. Continuing to provide clean, safe, affordable drinking 
water to everyone in our nation is essential, essential for 
public health for a given purpose and for economic prosperity. 
There is very little time left in this first session. There are 
challenges common to all of our districts. e-Manifest does not 
come close to being on that topic of lists. I hope the 
subcommittee will take up some of our other big issues, our 
bigger issues that are of concern to all of our constituents. 
Working together productively, we can deliver progress on many 
issues and create jobs in the process. Members on our side of 
the aisle are anxious to do that.
    And with that, I again thank you, Director Johnson, for 
appearing before the subcommittee today. Thank you for your 
work to get the e-Manifest program moving forward and I look 
forward to your comments.
    Mr. Shimkus. The gentleman yields back his time. Just for 
my colleague, you know that e-Manifest is my legislative baby, 
don't you? Right?
    So I would like to turn now to the vice chairman of the 
committee, Mr. Harper, for 5 minutes for an opening statement. 
Do you have any? OK. Anybody else on the Republican side? 
Anyone on the Democrat side? No. Seeing none, we would like to 
welcome Mr. Johnson from the EPA here. Your full testimony is 
entered in the record. You have 5 minutes, and obviously, we 
are not going to be stringent on the time, just we look forward 
to hearing you and as we talk about this discussion on the e-
Manifest, welcome, and you are recognized for 5 minutes.

   STATEMENT OF BARNES JOHNSON, DIRECTOR, OFFICE OF RESOURCE 
CONSERVATION AND RECOVERY, OFFICE OF SOLID WASTE AND EMERGENCY 
         RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Good morning, Mr. Chairman and members of the 
subcommittee. I am Barnes Johnson, Director of the Office of 
Resource Conservation and Recovery in the Office of Solid Waste 
and Emergency Response. I am pleased to be here today to 
discuss our efforts to develop an e-Manifest system. I want to 
thank you, Chairman Shimkus, and members of the House Energy 
and Commerce Committee, for their successful bipartisan efforts 
to help enact e-Manifest legislation.
    Subtitle C of the Resource Conservation Recovery Act 
requires that EPA establish a manifest system to ensure that 
when hazardous waste leaves its point of generation, it arrives 
safely at a designated, permitted hazardous waste management 
facility. The manual processing steps associated with the 
current paper based manifest system add up to a significant 
paperwork burden.
    As you know, the Hazardous Waste Electronic Manifest 
Establishment Act was signed into law more than 3 years ago on 
October 5, 2012. The Act directs the EPA to establish and 
implement an electronic manifest system. There are significant 
benefits to an e-Manifest system, both in cost savings and 
program efficiencies. EPA's projected e-Manifest system that 
handles 75 percent of the current manifest traffic could result 
in an annual net savings that exceeded $75 million.
    A number of other significant benefits are also expected. 
An e-Manifest will produce better quality data and more timely 
information on waste shipments, make it possible to have 
improved tracking capabilities for waste shipments, and users 
will be able to rely on the national electronic system for 
manifest data reporting.
    The Agency has been moving forward on key actions to 
implement the Act. The EPA has developed system architecture 
plans that focus on major assets of the e-Manifest system. The 
EPA worked extensively with commercial users on identifying and 
addressing their issues. The EPA has also met regularly with 
our state partner organizations. To realize significant 
benefits of an e-Manifest system, a broad range of private and 
public sector stakeholders must use it. And to help ensure that 
use, a system must meet stakeholder needs.
    To accomplish this, the Agency is relying heavily on 
available off-the-shelf software modules conducting user-
centered design development and is using agile software 
development methodologies. This approach embodies continuous 
improvement through iterative development of operating software 
and testing and continued, regular engagement with users and 
stakeholders throughout the process to provide on-going 
opportunities for input.
    In September 2015, the EPA, in partnership with GSA, 
completed an initial system demonstration. This focused on a 
key aspect of the system, the transaction at the end of the 
chain of custody when hazardous waste arrives at the designated 
waste management facility and that facility signs the 
electronic manifest to verify that all hazardous waste types 
and quantities were received.
    Getting the system to properly, electronically execute this 
all important manifest transaction was an important first step 
for us. The EPA worked with several industry users to complete 
this initial system functionality.
    The Agency will add more functionality in an incremental 
manner via modular contracting strategy. Research has shown 
that using this type of lean start-up methodology with agile 
techniques lowers the cost of current and future system 
development by addressing uncertainties sooner rather than 
later. By spring of 2018, EPA expects to have fully deployed a 
working e-Manifest system and to be collecting user fees to pay 
operation and maintenance costs.
    Besides system development, the Agency has also made 
progress developing regulations to support the new program. The 
EPA published a final regulation in February of 2014 authorized 
electronic manifests and we are working towards a proposed user 
fee regulation that is quite far along.
    In addition, the e-Manifest Advisory Board was established 
in August when EPA submitted a charter to Congress. The EPA 
appreciates the support of Congress in enacting legislation to 
authorize development in an electronic waste management system 
and looks forward to continued support to allow for further 
development, completion of a hazardous waste e-Manifest system. 
We are committed to keeping Congress informed of our progress.
    Mr. Chairman, that concludes my prepared statement. I will 
be happy to answer any questions that you or the subcommittee 
members may have about EPA's development of an e-Manifest 
system.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you very much. I am going to recognize 
myself for 5 minutes for the first starting of the questions. 
Before I do that, let me ask unanimous consent that members of 
the subcommittee have five legislative days to submit opening 
statements for the record. Without objection, so ordered.
    To date, $7.4 million has been appropriated for 
implementation and set up of e-Manifest. This number is $1.4 
million more than the legislation authorized and the President 
requested in his budget.
    Can you tell us how much the Agency expended on the e-
Manifest IT system and development so far from the fiscal year 
2014 and the fiscal year 2015?
    Mr. Johnson. Yes, sir. So we have spent $2.5 million of the 
$7.4 on system development activities. We have spent another 
$1.4 on other non-system related e-Manifest activities like 
regulatory development, establishment of a FACA and so on. And 
we have $3.5 million that remains unspent.
    Mr. Shimkus. Thank you. EPA's personnel expenditures, 
professional IT staff dedicated to the system work, were these 
new hires or people who only worked on e-Manifest?
    Mr. Johnson. OK, so we have eight FTEs that work 
exclusively on e-Manifest and they are a combination of new 
hires and people that have worked at EPA for some time.
    Mr. Shimkus. Are they paid out of the Environmental Program 
Management Funds?
    Mr. Johnson. No. They are paid out of the $7.4 million that 
has been appropriated for salaries.
    Mr. Shimkus. What about contract expenditures for that same 
period?
    Mr. Johnson. OK, so the contract expenditures that we have 
had for the same period that have come from the $7.4 have been 
exclusively used for e-Manifest.
    Mr. Shimkus. How much has been spent on additional 
expenditures associated with implementing the overall e-
Manifest Act such as personnel and contract expenses related to 
regulatory development--you kind of mentioned that earlier--e-
Manifest Advisory Board, and other related activities?
    Mr. Johnson. So we have spent in total, both personnel 
costs and other related costs with contractors on those two 
categories of $1.4 million.
    Mr. Shimkus. And these funds all came out of the $7.4?
    Mr. Johnson. They all came out of the appropriated dollars 
for e-Manifest specifically.
    Mr. Shimkus. OK, great. As I understand it, EPA has $4.9--
well, that is a different number. You are saying $3.5 million 
left in your response?
    Mr. Johnson. Yes, sir. At the beginning of the fiscal year, 
yes, sir.
    Mr. Shimkus. Right. How much of that--so that means, I am 
trying to get my math right here. How much of that $3.5 million 
was spent on personnel and contract expenses related to 
regulatory development?
    Mr. Johnson. OK, I will go through the numbers again. So we 
have been appropriated $7.4.
    Mr. Shimkus. Right.
    Mr. Johnson. So $2.5 million of that has been spent on 
system development and that includes both personnel and 
contract costs. $1.4 have been spent on non-system program-
related expenditures, leaving $3.5.
    Mr. Shimkus. Great.
    Mr. Johnson. So a total of $3.9 has been spent to date and 
a portion of those expenditures are for personnel and a portion 
of them are for contract costs.
    Mr. Shimkus. Very good. How much of the appropriated funds 
are currently--well, I got that answer, currently unspent and 
what are EPA's plans for them?
    Mr. Johnson. OK, so there is currently $3.5 that was 
unspent at the beginning of the fiscal year and we have a lot 
of work ahead of us to do, so that $3.5 is going to be used for 
a variety of system development activities. Our next, as I sort 
of have outlined in my written testimony, what we are really 
focused on right now is developing what in the IT world they 
call a minimum viable product in March. So our initial 
expenditures out of that $3.5 are going to be focused on 
delivering that minimum viable operating system by next spring.
    Mr. Shimkus. Thank you very much. Mr. Pallone, do you want 
to do an opening statement?
    Mr. Pallone. Sure.
    Mr. Shimkus. The chair recognizes Mr. Pallone for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. I know we tried to start 15 minutes 
later, but it doesn't always work out, so thank you, Mr. 
Chairman.
    Mr. Chairman, unfortunately, this hearing is one more in a 
long line of hearings that focus on small issues while large 
and pressing issues remain unexamined and unaddressed. Our 
failing drinking water infrastructure, the backlog of Superfund 
sites in need of clean up, and the backlog of brownfield sites 
in need of redevelopment are just a handful of items this 
subcommittee should be focusing on. These issues are important 
to the American people, to public health, to the environment, 
and to the economy. But the Republican majority on this 
committee is simply looking at the periphery.
    Last week's hearing focused on the small pot of technical 
assistance funding for drinking water systems, but not the big 
pot of infrastructure funding. Today's hearing focuses on a 
small pot of money to establish a headquarters manifest system, 
but not the funding needed to clean up sites contaminated with 
hazardous waste.
    In tomorrow's hearing, we will look at low level nuclear 
waste, but not in service of real solutions for the large 
stores of nuclear waste putting communities at risk. And that 
is just in this subcommittee. If we look beyond, we see 
repetitive hearings to attack Planned Parenthood and women's 
health and other rehashing discredited legal arguments against 
the Clean Power Plan.
    This great committee should be holding hearings on climate 
change, on drinking water, on brownfields and more. And I 
understand that we are having this hearing because the 
appropriators did not include funding for e-Manifest in this 
year's Interior Environment Bill. But if members were to 
examine that bill, you will see that the appropriators have cut 
funding for all sorts of important programs with bigger price 
tags and bigger impacts than e-Manifest. Funding for 
brownfields grants was $35 million below the President's 
request. Funding for Superfund cleanup was $65 million below 
the President's request. Funding for the Drinking Water State 
Revolving Fund was $429 million below the President's request. 
And those funding levels, I think, are unacceptable. And these 
are issues we should be addressing in our hearing today.
    Instead, we are here today about what EPA would do with $7 
million to establish an e-Manifest system. I suppose I should 
say a few words about the e-Manifest system since it is the 
subject of the hearing. Adopting an electronic system is a good 
idea and it should be funded. Users will see significant 
reductions in costs and the time it takes to comply with 
regulatory requirements. States will get better info more 
quickly and will avoid costs of data entry and first responders 
will get better access to information about hazardous shipments 
and so will the public. And the long-term benefits will far 
exceed the up-front costs.
    The appropriators, in my opinion, are being penny wise and 
pound foolish in cutting funding for this program just as they 
are in failing to invest sufficient funds to address our 
backlog of contaminated sites and infrastructure it appears. So 
I hope this subcommittee can focus on these pressing issues in 
the coming months and I yield back. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the ranking member of the subcommittee, Mr. 
Tonko, for five minutes for his questions.
    Mr. Tonko. Thank you, Mr. Chair. And I appreciate the 
opportunity to highlight how EPA's lack of funding is affecting 
EPA's ability to do important work on behalf of our nation's 
wellbeing.
    Now Director Johnson, the President's budget request for 
fiscal year 2016 included, as you made mention, the $7.4 
million for e-Manifest programming, is that right?
     Mr. Johnson. The $7.4 that we had discussed previously was 
the sum of the appropriations received in fiscal years 2014 and 
2015. The $7.4 is the President's request for 2016.
    Mr. Tonko. OK. And you had talked about some of the 
priorities with resources you have now. What would additional 
priorities be on your list if these available funds are 
directed to the e-Manifest program?
    Mr. Johnson. Yes, so one of the things that the President's 
budget request in the last two fiscal years has done is to try 
to put forward a figure that would really take funding 
uncertainties out of the question. I can't underscore enough 
for the committee how difficult it is to manage in the face of 
extreme funding uncertainties for a large system that EPA 
estimates is probably going to cost in the neighborhood of $16 
to build. And so the President's budget has tried to take that 
out of the equation.
    We have a number of things that we have to do to build a 
system. The first thing that we are going to be doing is 
working toward developing what we refer to as the minimum 
viable product in early next year and part of that will involve 
working with user authentication. We will be developing 
security infrastructure around the software. We will be 
implementing quality assurance and quality control procedures 
for the data that are coming in. We are going to be focusing on 
the transaction that occurs at the designated facility at the 
TSD. This is the location that involves the least number of 
people, but the most number of users, so we think it is a very 
critical part of the system functionality.
    We are going to be basically developing that portion of the 
system between now and next spring. When we do that, that will 
be a core set of capability that we can then add additional 
modules to. So after we get past next spring, then we will be 
going into other areas like, for example, other modes of 
transportation. We will initially focus on truck traffic. We 
will be moving into the rail arena. We will be adding bandwidth 
to the system, its ability to--you have to remember we may be 
receiving up to 25,000 manifests a day as potential receipts. 
So we have to have the bandwidth, the physical infrastructure. 
There is a number of additional build-out capabilities that we 
will need to do as we go beyond that core system into the 
larger system.
    Mr. Tonko. Thank you. And that functionality of which you 
speak is directly related to the House response. And 
unfortunately, the House Republican appropriators recommended 
that e-Manifest programming receive no funding in fiscal year 
2016 and even worse, e-Manifest is only one of many programs 
that will seriously be unfunded if the House Republican 
majority gets its way.
    So for example, funding for drinking water infrastructure, 
which is a pressing need for communities across our country 
will fall drastically short of what the President has 
requested. And as I said in my opening statement, this year's 
proposal or the proposed cut funding for the drinking water SRF 
by $150 million below this year's funding is a concern, and by 
$429 million below the President's 2016 budget request. With a 
backlog and infrastructure needs estimated at $387 billion, 
this proposal falls far short of what we should be investing.
    So Director Johnson, I know that drinking water 
infrastructure is not managed by your office, so I want to ask 
you how these dramatic cuts would affect EPA's ability to 
ensure safe drinking water? But I do think we all know that 
these funding levels will mean more deferred maintenance, more 
water main breaks, more boiled water advisories, and generally 
more disruption for communities across the country. What I will 
ask you is whether, in general, you think the EPA's mission is 
important and what your support is giving the Agency towards 
the resources necessary to protect human health and the 
environment?
    Mr. Johnson. Yes, I mean absolutely.
    Mr. Tonko. Your agenda obviously speaks to that mission and 
what I am hearing here is that you will be falling short of the 
appropriations required to do your work.
    Mr. Johnson. I am not from the Drinking Water Program, so I 
can't specifically----
    Mr. Tonko. Right.
    Mr. Johnson. I am not familiar with the particulars of 
that. I am from the Waste Program. I mean I obviously come here 
with a great deal of passion in support of EPA's mission to 
protect human health and the environment. I think that is 
something we all at EPA are trying to do.
    Mr. Tonko. I thank you. With that, Mr. Chairman, I yield 
back.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the vice chair of the subcommittee, Mr. Harper 
from Mississippi, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. Mr. Johnson, thank you 
for being here and to lend your expertise. I think it would be 
safe to say that you believe this issue is very important that 
you are here testifying on, wouldn't you?
    Mr. Johnson. Yes.
    Mr. Harper. And I don't think you would say this is a small 
issue as others have referred to. It is certainly very 
important to you in what you have to do.
    Mr. Johnson. It is important. It is important to me. I have 
to deliver the product here.
    Mr. Harper. Right. Monitoring current paperwork that you 
have on the manifests, how many items are done each day? When 
you have a transport done, how many are you having to monitor 
and track right now, just doing your regular paperwork?
    Mr. Johnson. OK, so the manifest system, the way it 
operates now, there are somewhere on the order of three to five 
million manifests that are managed in the country every year.
    Mr. Harper. And when you are doing that, you are having to 
also notify local law enforcement, perhaps, or the state 
authorities when there is something of particular significance, 
correct?
    Mr. Johnson. So as part of the manifest system, there is 
formal notification of the states that occurs as part of the 
processing of the manifest.
    Mr. Harper. And when we move into this e-Manifest system, 
is that going to be a real time transaction? Is that the 
purpose of that so that when it is done who will have access to 
that?
    Mr. Johnson. So the way our thinking is at the moment is 
that it is going to be very similar to when you send a package 
through the postal service. You go on the web and you can see 
the last transaction point. We are expecting to have a very 
similar kind of availability of information to the individuals 
who have shipped the waste, to the individuals that are 
handling the waste in transit, to the individuals that are 
receiving the waste on the end, as well as the states that are 
at the origin of the waste, where it is transported through and 
the end point. All of those individuals should have access to 
the transaction as it occurs if it is handled through the e-
Manifest system.
    Mr. Harper. And if you are looking, obviously, it is an 
electronic system. Therefore, it is subject to cyber attack and 
you have to have that security system built into that. Are you 
satisfied with the progress that is being made on that at this 
point today?
    Mr. Johnson. I am satisfied. We are going to be using the 
standard cyber security protocols and building to those 
criteria. We have hired a security expert to join our team 
recently, so it is an area that I think many who work with IT 
systems are keenly aware of and something that we, too, are 
focused on.
    Mr. Harper. The heart of this, obviously, is public safety. 
It is how we protect the public through the transport of 
hazardous materials and solid waste.
    Mr. Johnson. Right.
    Mr. Harper. And so at this point, do you believe that the 
development of the system is on track? Are you satisfied with 
where it is today?
    Mr. Johnson. I am satisfied with where it is today.
    Mr. Harper. And there, of course, $3.5 million remains of 
that money. How much do you believe will be used of that $3.5 
to continue with that system development? I know you have 
multiple needs for that money at this point that is unused. And 
you said the total cost that you think to get this system up 
and running was how much?
    Mr. Johnson. Sixteen million is our present estimate at the 
moment.
    Mr. Harper. And that is over what period of time?
    Mr. Johnson. That is between now and April of '18, spring 
of '18 when we intend to deliver the system. And that will be 
the point in time when we can start collecting fees and recover 
all of the dollars that have been appropriated.
    Mr. Harper. Has every appointment been made of the advisory 
board?
    Mr. Johnson. We have established the advisory board and I 
would say within the next month to month and a half, we will be 
notifying the individuals that we have selected for the board.
    Mr. Harper. And three of those come from the states?
    Mr. Johnson. Three of them come from the states.
    Mr. Harper. Who makes that selection? Are you making that 
selection?
    Mr. Johnson. We have a panel. We have a set of criteria 
based on the particular criteria that are in the statute and we 
have a team that make a recommendation for the selection.
    Mr. Harper. Is the panel all within the EPA or private 
industry or all within the government?
    Mr. Johnson. The selecting panel is all within EPA. 
However, members of the board themselves, of course, per the 
Act, come from the IT industry, come from the waste handling 
industry, and come from the states.
    Mr. Harper. The three states, will they be selected as the 
criteria, each from a different region or do they come from a 
particular background? Will any of them be industry related or 
will they all be--where will they come from?
    Mr. Johnson. They have self nominated and put forward their 
background and their experience. And so we will look at what 
they have put forward in their application and use that to make 
a decision about how to--which ones to select. And certainly 
geographic distribution is certainly one of the criteria.
    Mr. Harper. Thank you. I am over time my time. I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the ranking member of the full committee, Mr. 
Pallone for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. As I mentioned during 
my opening statement, I support the e-Manifest program. I think 
it should be funded. Perhaps better tracking of hazardous waste 
will mean less contamination of our land. But towns and states 
across the country are already dealing with a large backlog of 
sites contaminated with hazardous waste and other pollutants. 
And I don't understand why we are holding a hearing about $7 
million for the e-Manifest program and ignoring the tens of 
millions of dollars needed to clean up contamination.
    The brownfields program which has historically received 
bipartisan support promotes job growth, protects the 
environment and safeguards the health of our communities. 
However, the funding for brownfields continues to decrease. In 
fiscal year 2015, EPA received $80 million for the brownfields 
program, $5 million lower than the requested funding level. For 
fiscal year 2016, the President's budget recommends an 
additional $30 million for a total of $110 million. However, 
the appropriators have recommended only $75 million for the 
brownfields program, even lower than the funding level enacted 
in fiscal year 2015.
    So Mr. Johnson, am I correct that these funding levels fall 
far short of what was included in the President's budget?
    Mr. Johnson. Mr. Pallone, I am of course, director of the 
EPA's Waste Programs. I am not with the brownfields and the 
Superfund program, but my understanding of the information that 
you just expressed is consistent with my understanding. I know 
the President's fiscal year 2016 budget proposal came in with 
increases for both Superfund and brownfields so that those 
programs could deliver the great work that they do in terms of 
job creation, economic redevelopment, and protecting our 
communities. And having worked in the Superfund program myself 
for more than seven years as deputy director of the Remedial 
Program at EPA, I sort of understand that first hand.
    And I also know firsthand that those programs are 
exceptionally scalable and have shown in the past that when 
additional funds are appropriated, they deliver great benefit 
to the communities that they serve.
    Mr. Pallone. Thank you, Mr. Johnson. Let me ask about e-
Manifest. If EPA does not receiving funding for this work in 
fiscal year 2016, will development and implementation of the 
system be delayed?
    Mr. Johnson. So if we don't receive money in fiscal year 
2016, it will certainly jeopardize the velocity with which we 
can go forward.
    Mr. Pallone. OK.
    Mr. Johnson. And we are constantly juggling the speed at 
which we are able to do system development based on what we 
think is the availability of funds.
    Mr. Pallone. Well, more generally, when Congress fails to 
fund EPA programs like e-Manifest or brownfields, can we expect 
implementation to happen on schedule? Or even to happen at all?
    Mr. Johnson. Well, we certainly can't keep our schedules up 
if we don't have the funding that is needed.
    Mr. Pallone. All right. Thanks. I mean it just seems to me 
that Republicans in the House want to cut funding every year 
and then they complain that the EPA is falling behind. If we 
value toxic waste clean ups, drinking water infrastructure, and 
other EPA initiatives that protect human health, the 
environment, and the economy, we should ensure sufficient 
funding. And I think these are issues that matter to the 
American people. I know they matter to my constituents. And 
they should matter to the majority. So I hope we can focus more 
on these issues moving forward, Mr. Chairman. And I yield the 
balance of my time.
    Mr. Shimkus. Will the gentleman yield for one second?
    Mr. Pallone. Yes.
    Mr. Shimkus. So I think that is part of the debate we are 
actually having this morning and the conference we are going to 
have on the floor, I think tomorrow in the Bipartisan Budget 
Act agreement with the administration. The revised nonsecurity 
will go from $493 billion to $518 billion. That is fiscal year 
2016. In fiscal year 2017, the revised nonsecurity dollars will 
go from $531 billion. There is going to be more money for the 
revised nonsecurity if this budget agreement--it is 2 years, 
which would mean there would be some certainty. So we will see 
what happens on the floor.
    Mr. Pallone. We hope we get a big vote from the Republican 
side.
    Mr. Shimkus. I wouldn't bet a big one. Thank you. I yield 
to my colleague, Mr. Murphy from Pennsylvania, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. Thank you for being 
here. This is a fascinating process to me. In Western 
Pennsylvania, we have a great deal that also results from 
mining, from fracking, nuclear areas. These are all issues, 
medical wastes, et cetera. They need to be tracked. Just a 
couple of questions I have on this. I am trying to understand 
this whole system. Can you walk me through how this all works, 
the computer systems, the architecture of this?
    If I understand from your testimony, you talked about how 
basically the manifest follows the trucks, correct? And even 
from that it depends on someone to give the driver an accurate 
record of exactly what is in there, am I correct? And that is 
all kept on computer files? And then that is turned over at the 
site of the waste site.
    How do we make sure that what is in that manifest is what 
is in the truck? Something real basic like that.
    Mr. Johnson. So I will try to explain the way the system 
works today and the paper manifest and then talk about how we 
hope that it will, and we expect that it will, operate in an e-
Manifest system.
    So today there is a six-copy form that is used to create 
and document the chain of custody that occurs from the point of 
generation where the waste is first created, hand it off to the 
transporter. The transporter then sends the material to the 
designated facility where it will be stored, treated, or 
disposed. And then that form is sent back to the generator so 
that the TSD at the end, the designated facility at the end, 
confirms that what the generator thought they sent to them 
actually made it.
    Mr. Murphy. And this is what you are saying can be up to 
700,000 hours of paperwork?
    Mr. Johnson. Pardon me?
    Mr. Murphy. This is where you say that could be up to 
700,000 hours of paperwork? It is pretty burdensome.
    Mr. Johnson. Yes, yes, absolutely. And there is a copy of 
copies go to the state where the generator is, the state where 
the receiving facility. So that is how all the paperwork 
manifests works today.
    The electronic manifest, this transaction will occur 
electronically. And so it will occur on mobile devices perhaps. 
And there will be again a chain of custody that occurs. EPA has 
a system called the--we refer to as the chrome air rule, but it 
basically is a system of user authentication that ensures that 
the person who signs the electronic device is actually the 
person of record. So we will follow the exact same process that 
occurs----
    Mr. Murphy. Now all those things in place, so that this was 
supposed to have been up and running a couple of weeks ago. Are 
all the elements in place or is there a specific list of items 
you have that still have to be done? And let me add to that 
because we have had an Energy and Commerce Committee, a number 
of hearings on other electronic systems that are supposed to be 
up and running. And they weren't because the bugs were not 
tested before it was fully implemented. So I need to know if 
you can give me a list of some specific items yet to be ready. 
And then is EPA going to test this and do a test run of this, 
too?
    Mr. Johnson. Yes. All great questions. So the system is not 
up and running. We do have a key portion of the system that is 
up and running that we developed and got going that relates to 
that final transaction where the TSD confirms that what they 
received actually is that. So we have that piece. But we have 
to do the build out for the rest of the system. And so there is 
a number of pieces there that we have to work on, the 
transaction at the generator, the transporter. We have to have 
a system for paper processing. We haven't talked about that, 
but the e-Manifest Act allows people to continue to do paper 
processing. We have to have interfaces so the states can access 
and acquire this data. We have been working very closely with 
the user community. We have been, shall I say, joined at the 
hip with a variety of waste management companies to learn the 
kinds of systems they already use so that we can have software 
components that speak directly with their existing software 
systems. So we have those pieces to build out. But we have been 
actually in very close and regular communication with the 
hazardous waste management industry on the structure and the 
functionality of this system, learned a great deal from them.
    Mr. Murphy. So in the final seconds I have left, I just 
want to make sure this is something--so you have done some work 
on this, but any more test runs are going to be needed?
    Mr. Johnson. Absolutely. The whole notion of what we are 
going to be doing is developing small pieces, testing those, 
develop small pieces, testing them, getting them out to the 
user. One of the reasons why IT systems have failed in the past 
is that they are sort of really done apart from the user 
community. And we are actually committed to every step of the 
way working right alongside with our user community, having 
them test software in real time. In fact, the software that we 
developed in September is available to the public. We have 
given it to a number of members of the waste management 
community. They have given us immediate feedback on things we 
got wrong, things we need to improve. So we are staying very 
closely tied in with the user community.
    Mr. Murphy. It is a great idea to develop that with the 
user community. I hope other agencies use that. Thank you. I 
yield back.
    Mr. Shimkus. The gentleman yields back. The chair now 
recognizes the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. I want to thank the chairman and the ranking 
member for holding the hearing today. Like a lot of members, I 
am disappointed that since it is not up and running, Chairman 
Shimkus and I sponsored the e-Manifest system when the 
subcommittee held hearings and supported passage of the 
Hazardous Waste Electronic Manifest Establishment Act. The e-
Manifest Act was passed with strong bipartisan support, support 
from the industry, environmental community because its benefits 
are so obvious, reducing paperwork, lowering the administrative 
burden on regulators and industry, saving tens of millions of 
dollars annually and improving the tracking and management of 
our nation's hazardous waste.
    It has been over 3 years since e-Manifest was signed into 
law. I am pleased to get an update on the status and see what 
Congress and EPA can do to ensure that promised benefits of e-
Manifest are delivered as soon as reasonably possible. Maybe 
our subcommittee should have had some hearings earlier so we 
could get an update and see what the problem was.
    Mr. Johnson, e-Manifest system protected to save over $75 
million and thousands of hours per year once implemented. 
However, you mentioned some of the noneconomic benefits in this 
system. Can you elaborate on these noneconomic benefits?
    Mr. Johnson. Yes, sir. So we expect a number of them. I 
think one of the great things will be the immediate 
accessibility to information. We will have access to e-Manifest 
information like we simply don't have right now. The e-Manifest 
data other than in some of the states that takes very special 
efforts to collect and acquire that information, we really 
don't have it at our fingertips. I think the quality control 
will be much improved.
    You have to realize there are over 270 data elements on up 
to 3 to 5 million of these transactions occurring every year. 
So being able to do much better quality control, I think will 
have ripple effects through the hazardous waste management 
system and bring new accountability to the management of 
hazardous waste in general.
    Mr. Green. Can you describe who the primary stakeholders 
are on this issue and how you would involve them?
    Mr. Johnson. Absolutely. So our primary stakeholders, of 
course, are the states. We have worked very closely with a 
number of states, and particularly those states that have 
systems right now of acquiring manifest data through the paper 
system. We have been working very closely with that.
    Of course, the state association, ASTSWMO and ECOS, we have 
been working very closely with; on the industry side, the whole 
transactional environment, so the generator community, the 
transportation community, as well as the treatment, storage, 
and disposal facilities. So we have been working with the 
Environmental Technology Council which is an association that 
represents many of the larger hazardous waste management 
facilities. We have been working with particular businesses 
like Safety Clean and other hazardous waste management 
facilities, working with them, working with their IT 
departments.
    Mr. Green. I represent a district in Houston, we have a 
number of the customers who would like to have that and you 
mentioned some of them. How would lack of funding for fiscal 
year 2016 affect your ability to get the system on line by 
2017?
    Mr. Johnson. Well, I think it will have an important 
adverse effect on us. We are really adjusting the velocity, the 
speed of our development activities based on the funding that 
we have available to us. And under the funding uncertainty that 
we are presently dealing with, we are being cautious in the 
speed at which we move forward.
    Mr. Green. Given the benefits of the system often the costs 
to develop are more than justified. The same is true for much 
needed water infrastructure repairs, brownfields, Superfund 
funding. I share the concern voiced by my colleagues on this 
subcommittee in failing to address the big issues that have an 
impact on our working families. Congress must invest in our 
infrastructure before it fails and I hope the subcommittee will 
focus on infrastructure needs in the coming months.
    Mr. Chairman, I will yield back my 38 seconds.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from West Virginia, Mr. McKinley, 
for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you, Mr. 
Johnson, for appearing here today. It is my understanding----
    Mr. Shimkus. Would the gentleman yield for a second? Can 
you pull your mic a little bit closer? The gentleman from Texas 
cannot hear you and he wants to.
    Mr. McKinley. It is my understanding that the total funding 
for this could be, you are saying, in the $16 million range?
    Mr. Johnson. We are presently estimating, based on what we 
know now, that the cost of the system to be $16 million.
    Mr. McKinley. OK, so what was your projection of the cost 
to have outsourced this? What could they have done in the 
private sector?
    Mr. Johnson. Absolutely. One of the things that when the e-
Manifest Act passed, we had the same sense of urgency that I am 
feeling from the committee today.
    Mr. McKinley. What is the answer to the question? What do 
you think the outsourcing would have cost if you had done it 
with private sector?
    Mr. Johnson. We don't know.
    Mr. McKinley. So somebody decided to do this in-house 
without having a----
    Mr. Johnson. No, the first thing that we did, the very 
first thing that we did was we went out and talked to every 
individual that had systems like e-Manifest. So the knee jerk 
reaction, go talk to FedEx, talk to Amazon, talk to IBM, talk 
to all the big companies out there, the Postal Service, to talk 
to these folks. We went and talked to all of them.
    Mr. McKinley. I am concerned about this time. This was 
passed in '12 and it is 3 years later and you are saying it may 
not be finished for two more years. So I think we have got an 
issue here overall, whether it was good judgment or bad 
judgment as to try to do it in-house. And I think the GAO came 
out in its own report has been very concerned about the use of 
in-house IT work right now with numbers of cancellations.
    Mr. Johnson. We are not going to be doing in-house, sir.
    Mr. McKinley. I have only got 5 minutes.
    Mr. Johnson. OK.
    Mr. McKinley. So Mr. Shimkus asked Ms. Rudzinski back in 
2012, how long do you think it is going to take to do this? And 
she said if we use very conventional procedure approach, 
typically in 12 to 18 months. That is 12 to 18 months. We are 3 
years later and you are saying it may be another 2 years to go. 
So was she wrong?
    Mr. Johnson. I believe she was responding to the length of 
time it takes to get a contract in place. We are not going to 
be doing this in-house. We are going to be using contractors.
    Mr. McKinley. Rules on that as well. Let me go a little 
further. I think you have got a problem. It could be over 
funding. It could be maybe incompetency perhaps in taking this 
out. I don't know what your qualifications are, or people that 
are writing your specifications for this. Are these people that 
have failed on others? Are you using tech stacks?
    Mr. Johnson. Excuse me, sir?
    Mr. McKinley. Tech stacks?
    Mr. Johnson. Yes.
    Mr. McKinley. You are using them.
    Mr. Johnson. I am not sure----
    Mr. McKinley. It is an OMB program for software 
development.
    Mr. Johnson. It is a certification program?
    Mr. McKinley. It is reviewing, the status monitoring, 
scheduling of development of software like this. And I am just 
curious, you are not familiar with it, so you are apparently 
not using it. And OMB has been recommending to the IT 
department that they should be using this and it sounds like 
you are not using it.
    The other thing that I think in answer back to Congressman 
Murphy's comment, I didn't hear you use the term IV&V, 
independent verification and validation, is a way to check for 
issues as you go. Are you using IV&V?
    Mr. Johnson. I will ask the technical team.
    Mr. McKinley. So if you have opted--that is pretty 
incredible--so if you have opted without having other costs 
incurred, I am going to do this in-house, even though if again 
the GAO has said, they have rattled off this list in their 
report, Department of Defense canceled their contract five 
years after spending billions of dollars. Homeland Security, 
they canceled that contract after a billion dollars. Veterans 
Affairs--I could go on and on of there is some real questions 
of whether or not our IT is capable of writing the kinds of 
specifications to put these things back out in the software. 
And apparently, they seem to be recommending that we consider 
using outsourcing and I don't hear, you have already 
acknowledged you had no idea what the outsourcing cost could 
be, but you decided to do it in-house.
    Mr. Johnson. No, we are outsourcing this work.
    Mr. McKinley. I thought you said you were doing it with 
eight people on your staff?
    Mr. Johnson. We, of course, have internal staff who are 
also outsourcing the work using modular contracting strategies, 
agile development. That is what we intend to do.
    Mr. McKinley. I am running out of time here. So in the 
future, if this has been going on for 3 years, are we going to 
be able to get some monitoring of this, to see some mileposts 
that we are getting something done in a time frame, the costs, 
how the costs are being incurred with this? Where is the 
transparency that we were supposed to get?
    Mr. Johnson. We are prepared to be very transparent.
    Mr. McKinley. This is the first report we have heard from 
you in 3 years.
    Mr. Johnson. I am happy to report to the committee as they 
see fit on progress throughout the development.
    Mr. McKinley. Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from Texas, Mr. Flores, for 5 
minutes.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Johnson, if a 
state has not delegated enforcement of Subtitle C, what is the 
requirement on the manifest once it has been verified by the 
disposer?
    Mr. Johnson. I am sorry, Mr. Flores, could you please 
repeat the question?
    Mr. Flores. Yes. If a state has not delegated enforcement 
of Subtitle C, what is the requirement on the manifest once it 
is verified by the disposer?
    Mr. Johnson. So I think I will have to get back to you. I 
hesitate to respond on the record on a complex state 
authorization issue. So I will get back to you on that.
    Mr. Flores. I ask you to provide that answer for the 
record. And can you give the subcommittee a specific list of 
items that need to be done in their timeline so that we can 
understand what stands between now and the system being fully 
operational?
    Mr. Johnson. Absolutely. So our first task that we are 
going to be focusing on between now and next spring is 
developing the core software system that we refer to as the 
minimum viable product. And this going to focus on the software 
functionality that occurs around the receiving facility, the 
designated facility, the TSD. We will develop basic security 
infrastructure, basic user authentication. We are going to be 
using our electronic signature protocols in that verification. 
Have it so that the TSD can receive information and send out 
information, confirming the receipt of the waste. So that is 
our first core comprehensive deliverable following what we 
developed in September.
    Then following this spring, we will be building out 
additional pieces of the system. So we have to have a paper 
tracking system. We have to develop APIs, application 
programming interfaces, for our states. We have to have user 
interfaces that we have to develop for the system, data 
handling systems, that sort of thing.
    And then we have to, as I said, grow the ability of the 
system to operate with a much larger bandwidth than we will in 
the development cycle. So those are examples of some of the 
things that we have to do down the road.
    Mr. Flores. And in terms of the rulemaking, what is the 
status of fee setting for system users?
    Mr. Johnson. So we are in the final stages of clearing what 
we refer to as our fee rule. That will be, we expect to be 
proposed early next year. And in that rule, we are going to lay 
out the structure of our fee collection system.
    Mr. Flores. Thank you for your responses. I look forward to 
the answer to the first question for the record.
    Mr. Johnson. Yes.
    Mr. Flores. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from North Carolina, Mr. Hudson, 
for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman. Thank you for holding 
this hearing today which allows us to be updated on the 
implementation of this important program.
    Mr. Johnson, thank you for being here and sharing your 
testimony. My first question for you is has the EPA determined 
how e-Manifest will apply to hazardous waste shipments by rail?
    Mr. Johnson. We have not fully determined that. Of course, 
there is an existing electronic system that is used to track 
the movement of hazardous materials under DOT's program. We 
have been talking to the rail industry and we are well aware 
that we have to develop some linkages with their existing 
system.
    Mr. Hudson. Well, I appreciate that. There is a tremendous 
amount of this waste, to my understanding, that is shipped by 
rail. So I think it would be important that we include that.
    My next question is how will EPA strive to protect 
legitimate confidential business information reported as part 
of this system as the e-Manifest system?
    Mr. Johnson. Yes, this has been an issue for us and one 
that we grappled in our one-year rule. And EPA's thinking is 
that one of the, I think, key tools that we are going to be 
using to handle confidential business information is that other 
than the parties that are directly involved in the transaction, 
we are going to have a 90-day delay period before we make the 
manifest information publicly available.
    EPA has made a determination that we don't believe that 
generally manifest information is CBI, but we do know that it 
has important commercial value, so we think that by delaying 
the time between when the transaction occurs and its 
publication for the broader public to see, that that will help 
ameliorate any concerns that have been raised in this regard.
    Mr. Hudson. I appreciate it. Could you help me understand 
more broadly sort of what are the issues that arose that caused 
this delay in the time frame? Just help me understand why it 
has taken so long?
    Mr. Johnson. Yes, absolutely. So when the law was passed 
and EPA immediately had a sense of urgency about building the 
system, the very first thing that we did is we went out--it was 
really one of two silver bullets that had to come forward if we 
were going to meet this 3-year deadline. We were either going 
to find a vendor out there that had an existing system that we 
could basically take and adapt. So we went out and we talked to 
Amazon, to the Postal Service, to FedEx, and all of the people 
that you think naturally and we all know have software systems 
that are out there that do kind of what e-Manifest is intended 
to do. All of those companies came back to us and said look, we 
are in the package movement business. We are in the retail 
business. We are not in the software sales business. This is 
part of our intellectual property and we are not selling it to 
anybody. So that was a dead end for us.
    The other thing that we had hoped was a thought that had 
been part of the legislation which is a share and share and 
saving share in revenue or other strategies for intellectual 
property sharing with people so that we could kind of get 
going. We pursued that. The legislation, as it was finally 
passed, didn't have the full authority for that, particularly 
with the appropriations coming through, having to come through 
every year. So that was not something that we could work on.
    Once we sort of got to the bottom of those two things 
through pretty extensive conversation with the vendor 
communities out there, we are going to have to hire contractors 
and use this agile modular contracting strategy to get this 
done. So that is really, I think, one of the biggest reasons 
why we are where we are today was we really tried to pursue 
these silver bullets. They didn't work out. Now we are on a 
track using what all the research says is the most cost 
effective, efficient way to build IT systems.
    Mr. Hudson. All right. One final question. What did you 
learn from September's initial demonstration of the system? Did 
it meet your expectations? Why or why not?
    Mr. Johnson. Absolutely. It certainly met our expectations. 
We were really pleased with the outcome. I think we learned a 
number of things. One of the things is we learned how useful 
our user community is in identifying errors. They were not shy 
about telling us when we had mistakes and errors and things 
that we needed to correct. We immediately went in and through 
the sprints that you go through in the agile development 
process, we were able to get the speed back and fix the 
software in a real time basis. So that was one of the things 
that we learned.
    We learned that we needed a data model and we need to do a 
little bit better explanation of our software and how it 
operates, so a little bit more communication when we put these 
modules out to get the private sector to react to and use and 
try to interface with their systems.
    Mr. Hudson. Thank you, Mr. Chairman. My time has expired. I 
yield back.
    Mr. Shimkus. The gentleman yields back his time. Just a 
point or two that wasn't really discussed. One of the big 
issues, the reason why we wanted to do this was the storage, 
all the paper that is stored in file cabinets and buildings for 
this documentation. So there was a desire to get it digitally 
stored. I know that is all part of the process.
    Seeing no other members wishing to ask any questions I want 
to remind Mr. Johnson that the hearing record will remain open 
for ten legislative days for anyone else who may wish to submit 
a follow-up question. And we want to thank you for coming and 
we will call this hearing adjourned.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
